No. 20-5398
IN THE

LEZMOND CHARLES MITCHELL,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Celeste Bacchi, a Deputy Federal Public Defender in the Office of the
Federal Public Defender for the Central District of California, who was appointed as
counsel for Petitioner under the Criminal Justice Act, 18 U.S.C. § 3006(A)(b),
hereby certify that on August 21, 2020, a copy of Petitioner’s REPLY IN
SUPPORT OF PETITION FOR WRIT OF CERTIORARI AND OF
APPLICATION FOR STAY OF EXECUTION were sent electronically and
mailed postage prepaid to:

William G. Voit, Assistant U.S. Attorney
Krissa Marie Lanham, Assistant U.S. Attorney
Office of the U.S. Attorney
Two Renaissance Square
40 N. Central Avenue, Suite 1800
Phoenix, Arizona 85004-4449
William.Voit@usdoj.gov
Jeffrey B. Wall, Acting Solicitor General
Brian C. Rabbitt, Acting Assistant Attorney General
Jenny C. Ellickson, Attorney
U.S. Department of Justice
Civil Division, Room 7230
950 Pennsylvania Avenue, NW
Washington D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
All parties required to be served have been served. I declare under penalty of
perjury under the laws of the United States of America that the foregoing is true
and correct.
Executed on August 21, 2020, at Los Angeles, California.

/s/ Celeste Bacchi
CELESTE BACCHI*
Deputy Federal Public Defender
Attorneys for Petitioner
LEZMOND CHARLES MITCHELL
*Counsel of Record

